                                                    U.S. DEPARTMENT OF
                                      HOUSING AND URBAN DEVELOPMENT
                                             OFFICE OF INSPECTOR GENERAL




                                                                                                  MEMORANDUM NO:
                                                                                                   2012-LA-1801

September 26, 2012

TO:                Charles S. Coulter, Deputy Assistant Secretary for Singly Family Housing, HU

                   Dane M. Narode, Associate General Counsel for Program Enforcement, CACC



FROM:              Tanya E. Schulze, Regional Inspector General for Audit, Los Angeles Region 9,
                   9DGA

SUBJECT:           Shea Mortgage, Inc., Aliso Viejo, CA, Allowed the Recording of Prohibited
                   Restrictive Covenants


                                                INTRODUCTION

The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General
(OIG), conducted a limited review of loans underwritten by Shea Mortgage, Inc. 1 We selected
the lender based on the results of an auditability survey, which determined that Shea Mortgage
allowed prohibited restrictive covenants to be filed against Federal Housing Administration
(FHA)-insured properties. The objective of our review was to determine the extent to which
Shea Mortgage failed to prevent the recording of prohibited restrictive covenants or potential
liens in connection with FHA-insured loans closed between January 1, 2008, and December 31,
2011.

HUD Handbook 2000.06, REV-4, provides specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the review.

The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.




1
    FHA identification number 78404
                                                Office of Audit (Region 9)
                                  611 W. Sixth Street, Suite 1160, Los Angeles, CA 90017
                                        Phone (213) 894-8016, Fax (213) 894-8115
                               Visit the Office of Inspector General Website at www.hudoig.gov.
                                         SCOPE AND METHODOLOGY

We reviewed 115 2 loans underwritten by Shea Mortgage with closing dates between January 1,
2008, and December 31, 2011. We conducted the audit work from the HUD OIG Phoenix, AZ,
Office of Audit between April and August 2012. To accomplish our objective, we:

•       Reviewed prior HUD OIG audit reports with findings that included lenders allowing
        prohibited restrictive covenants; 3

•       Reviewed relevant FHA requirements set forth in 24 CFR (Code of Federal Regulations)
        Part 203;

•       Reviewed a HUD OIG legal opinion pertaining to restrictive covenants;

•       Reviewed a HUD management decision discussing prohibited restrictive covenants;

•       Reviewed prior reviews conducted by HUD Quality Assurance Division (QAD);

•       Discussed the prohibited restrictive covenants with Shea Mortgage officials, and

•       Obtained and reviewed FHA loan data downloaded from HUD’s Single Family Data
        Warehouse 4 and Neighborhood Watch systems. 5

We analyzed the Single Family Data Warehouse data as of May 31, 2012, and separated the data
into two categories: (1) loans that went into claim status and (2) loans that were still active. We
selected a 100 percent review of the claim loans, 48 loans total, and elected to conduct a highly
stratified attribute statistical sample of the 1,498 active loans. The stratified sample of the 67
loan samples was randomly selected and weighted by means of a computer program in SAS®
using a seed value of 7. To meet the audit objective, we also:

•       Requested and received copies of the lender’s FHA lender files for the loans selected for
        review;

•       Conducted Internet research, identified and queried applicable county recorder offices,
        and searched Accurint 6 to obtain and review recorded documents related to the sampled
        FHA-insured mortgages; and


2
  48 claim loans and 67 statistically selected active loans
3
  Audit report numbers 2009-LA-1018, 2010-LA-1009, and 2011-LA-1017
4
  HUD’s Single Family Data Warehouse is a collection of database tables structured to provide HUD users easy and
efficient access to single-family housing case-level data on properties and associated loans, insurance, claims,
defaults, and demographics.
5
  Neighborhood Watch is a Web-based software application that displays loan performance data for lenders and
appraisers by loan types and geographic areas, using FHA-insured single-family loan information.
6
  Accurint LE Plus accesses databases built from public records, commercial data sets, and data provided by various
government agencies.




                                                         2
•       Compiled and summarized the loan data with corresponding prohibited restrictive
        covenants.

For the audit sample, the percentage and number of loans with unallowable restrictive covenants
were computed based on the weighted sampling results and extended to the population using the
“surveyfreq” procedure provided by SAS®. We used a six-strata sample design to control for
potential bias that might arise from varying rates of price escalation and varying resale demand
based on population density. Of the selected samples, 31 had disallowed covenants, which
projects to 47.8 percent, or 715.45 loans. To account for the statistical margin of error, we
subtracted the standard error (86.12) times a t-score of 1.67. As a result, we can be 95 percent
confident that at least 571.6 of the 1,498 loans had similar problems with unallowable restrictive
covenants.

We relied in part on and used HUD computer-processed data to select the claim and active loans
reviewed for prohibited restrictive covenants. Although we did not perform a detailed
assessment of the reliability of data, we performed a minimal level of testing and determined that
the data were sufficiently reliable for our purposes.

We conducted our work in accordance with generally accepted government auditing standards,
except that we did not consider the internal controls or information systems controls of Shea
Mortgage. We did not follow standards in these areas because our objective was to identify the
extent to which Shea Mortgage allowed prohibited restrictive covenants and how that affected
the FHA single-family insurance program risk. To meet our objective, it was not necessary to
fully comply with the standards, nor did our approach negatively affect our review results.

                                               BACKGROUND

Shea Mortgage is a nonsupervised direct endorsement lender 7 headquartered in Aliso Viejo, CA.
It was approved to participate in HUD’s FHA mortgage insurance program in April 2002. Its
affiliate builder, Shea Homes, was the seller of the properties discussed in this review
memorandum.

FHA, created by Congress in 1934, is the largest mortgage insurer in the world aimed at helping
low- and moderate-income families become homeowners by lowering some of the costs of their
mortgage loans. FHA mortgage insurance also encourages lenders to approve mortgages for
otherwise creditworthy borrowers that might not be able to meet conventional underwriting
requirements by protecting the lender against default. Lenders are responsible for complying
with all applicable HUD regulations and are protected against default by FHA’s Mutual
Mortgage Insurance Fund, which is sustained by borrower premiums. The insurance fund pays
claims to lenders in the event of homeowner default.



7
  A nonsupervised lender is a HUD-FHA-approved lending institution that has as its principal activity the lending or
investment of funds in real estate mortgages and is not a supervised lender, a loan correspondent, a governmental
institution, a government-sponsored enterprise, or a public or State housing agency and has not applied for approval
for the limited purpose of being an investment lender.




                                                         3
We reviewed a legal opinion 8 from the OIG’s Office of Legal Counsel (OLC) regarding the
seller’s restriction on conveyance of FHA properties. Counsel opined that the recorded
agreements, between the seller and borrowers, would constitute a violation of HUD statutes,
regulations or handbook requirements. In its opinion, OIG OLC specifically stated that 24 CFR
203.41(b)(iv), pertaining to a consent by a third party, violates HUD’s regulations. In this case,
the seller is considered a third party.

We also obtained a HUD management decision on the recommendations of a prior OIG audit, 9
not related to Shea Mortgage. In the decision, HUD agreed that the execution of the prohibited
restrictive covenants is a violation of Federal regulations and FHA requirements and considered
the violation a serious deficiency, stating that the loans with the prohibited restrictive covenants
are ineligible for FHA insurance.

Additionally, we reviewed HUD’s QAD finding letters to Shea Mortgage concerning two FHA
loans, which violated 24 CFR 203.41(b) with regards to restrictions on conveyance. 10 In the
HUD letters to Shea Mortgage, HUD stated that the restrictions on conveyance were found to be
unallowable material Federal statute violations. HUD determined that Shea Mortgage failed to
ensure that the subject property met eligibility requirements for FHA mortgage insurance. HUD
also noted that FHA will not accept legal restrictions on conveyance.

                                                  RESULTS

Shea Mortgage did not follow HUD requirements when it underwrote loans that had executed
and recorded agreements between Shea Homes and the FHA borrower, containing prohibited
restrictive covenants in connection with FHA-insured properties. This noncompliance occurred
because Shea Mortgage did not exercise due diligence and was unaware that the restrictive
covenants recorded between Shea Homes and the borrowers violated HUD-FHA requirements.
As a result, we found 600 FHA-insured loans (29 claim loans and 571 active loans) with a
corresponding prohibited restrictive covenant recorded with the applicable county recording
office, and Shea Mortgage placed the FHA insurance fund at unnecessary risk for potential
losses.

Claim Loan Review Results

We identified and reviewed all 48 claim loans underwritten by Shea Mortgage, 11 limited to loans
closed between January 1, 2008, and December 31, 2011. In our review of the applicable county
recorders’ documents, we identified unallowable restrictive covenants corresponding to 29 of the
48 claim loans with properties in Arizona and California. Of the 29 loans, 11 resulted in actual
losses to HUD totaling $1.47 million (see appendix C, table 1), and 18 resulted in claims paid
totaling $2.43 million, but the properties had not been sold by HUD (see table 2, appendix C).
Active Loan Sample Results

8
  The legal opinion was previously obtained during the review of separate lender (2011-LA-1017) for an equivalent
restriction contained in the FHA purchase agreement.
9
  Audit report 2011-LA-1017
10
   HUD post endorsement technical review results on FHA loans 048-6246440 and 048-5912514.
11
   Based on HUD’s Single Family Data Warehouse as of May 31, 2012




                                                        4
Additionally, we completed a random attribute statistical sample and selected 67 of 1,498 active
loans within our audit period. In our review of the applicable county recorders’ documents of
the sampled active FHA loans, we identified an unallowable restrictive covenant corresponding
to 31 of the 67 sampled active loans with properties in Arizona and California. Of the 31 loans,
27 12 were still active with an unpaid principal balance of $7.7 million (see table 3, appendix C),
and 1 13 loan was a preforeclosure sale with a $135,699 claim paid by HUD (see table 2,
appendix C).

Based on a highly stratified sample, designed to minimize error and to accommodate varying
rates of price escalation and varying demand based on population density, 47.8 percent of the 67
weighted loan samples contained restrictive covenants, which are not allowed by HUD
rules. Further, we can be 95 percent confident that at least 571 of the 1,498 active loans in our
audit period had similar problems with unallowable restrictive covenants (see Scope and
Methodology).

Restriction on Conveyance

For each FHA loan, the lender certifies on the uniform residential loan applications that the
mortgage was eligible for HUD mortgage insurance under the direct endorsement program. The
FHA insurance requirements, set forth in 24 CFR 203.41(b), state that to be eligible for
insurance, the property must not be subject to legal restrictions on conveyance. Further, 24 CFR
203.41(a)(3) defines legal restrictions on conveyance as “any provision in any legal instrument,
law or regulation applicable to the mortgagor or the mortgaged property, including but not
limited to a lease, deed, sales contract, declaration of covenants, declaration of condominium,
option, right of first refusal, will, or trust agreement, that attempts to cause a conveyance
(including a lease) made by the mortgagor to:

         (i)      Be void or voidable by a third party;
         (ii)     Be the basis of contractual liability of the mortgagor for breach of an agreement
                  not to convey, including rights of first refusal, pre-emptive rights or options
                  related to mortgagor efforts to convey;
         (iii)    Terminate or subject to termination all or a part of the interest held by the
                  mortgagor in the mortgaged property if a conveyance is attempted;
         (iv)     Be subject to the consent of a third party;
         (v)      Be subject to limits on the amount of sales proceeds retainable by the seller; or
         (vi)     Be grounds for acceleration of the insured mortgage or increase in the interest
                  rate.”

Additionally, HUD Handbooks 4000.2 paragraph 5-1(B) and 4155.2 paragraph 6.A.1.h both state
that it is the lender’s responsibility at loan closing to ensure that any conditions of title to the
property are acceptable to FHA. In essence, it is the duty of the lender to ensure FHA loans
approved for mortgage insurance are eligible and acceptable per FHA rules and regulations. The

12
   FHA loan numbers 043-7500663 (refinance), 048-4852796 (paid in full), and 048-5798344 (netting refinance)
were active at the time of our review but the FHA insurance status was later terminated due to the stated actions.
Therefore, indemnification is not warranted, and these loans were not included in appendix C.
13
   023-3417172




                                                          5
restrictive covenants identified placed a prohibited restriction on the conveyance, by a third
party, of the FHA properties, conflicting with the lender’s certification that the loans met HUD-
FHA insurance requirements set forth in 24 CFR 203.41 (a)(3). Although HUD’s Handbook
4155.1 paragraph 4.B.2.b states, “FHA security instruments require a borrower to establish bona
fide occupancy in a home as the borrower’s principal residence within 60 days of signing the
security instrument, with continued occupancy for at least one year,” these security instruments
would be between the lender and borrower, not a third party like the seller. Extra emphasis must
be placed on the fact that the conveyance of the property, during the occupancy period, was at
the consent of the seller, which violated HUD-FHA requirements at 24 CFR 203.41(a)(3)(iv).
During the exit conference, Shea Mortgage officials confirmed that the seller’s consent was
required for conveyance during this period. The following are excerpts from two versions of the
recorded restrictive covenants found between the seller, a third party to the FHA loans, and
borrowers.




We also identified examples of language found in the purchase agreements, contained within the
lender’s loan files, which stipulate monetary damages to the seller in the event of a breach in the
contract. A breach of the contract would include the borrower selling, leasing, or renting the
property during the occupancy period. In the example of the purchase contract language
pertaining to the agreed occupancy period provided below, the monetary damage payable to the
seller was listed as $100,000. 14




14
     The example was from the lender case file for FHA loan number 023-2611543.




                                                        6
During a conference call, Shea Mortgage officials stated they were unaware that the restrictive
covenants recorded between Shea Homes and the borrowers violated HUD-FHA requirements.
However, it appeared that Shea Mortgage was notified by HUD QAD, based on a post
endorsement review, that legal restrictions on conveyance violate 24 CFR 203.41(b), are material
loan deficiencies, and render a property ineligible for FHA insurance. In the review, HUD stated
Shea Mortgage failed to ensure that the subject property met eligibility requirements for FHA
mortgage insurance. Shea Mortgage did not exercise due diligence by failing to ensure that
language included in its loans was appropriate and followed HUD rules and regulations. We
informed Shea Mortgage officials that the requirements pertaining to legal restrictions on
conveyance are contained in 24 CFR Part 203, Single Family Mortgage Insurance.

Impact and Risk for Losses

We identified 600 loans (29 claim loans and 571 active loans) within our audit period that had
unallowable restrictive covenants on the FHA-insured properties. The third party agreements,
which contained the prohibited restrictive covenants, between the seller and borrowers, violated
HUD-FHA requirements set forth in 24 CFR 203.41 (a)(3)(iv), thereby materially impacting the
insurability of the questioned loans, making the loans ineligible for FHA insurance.
Additionally, the borrowers in the restrictive covenant agreements were restricted in their ability
to rent, lease, sell, or otherwise convey the FHA properties. By allowing the restrictive
conveyance agreements on FHA properties, Shea Mortgage may have forced borrowers with
decreasing financial capability to remain in their property longer than they would have
otherwise. As a result, Shea Mortgage’s failure to exercise due diligence placed the FHA
insurance fund at unnecessary risk for potential losses by approving ineligible properties for
FHA insurance and by restricting borrower's’ in their ability to rent, lease, sell, or otherwise
convey the FHA properties. For the 600 loans identified, HUD would not otherwise see a loss
on the uninsurable FHA loans as they would not have been approved for FHA insurance and
would not be the responsibility of the FHA insurance fund. For the 29 claim loans identified as
ineligible for FHA insurance, HUD did in fact suffer a loss it should not have suffered.




                                                 7
Corrective Actions Taken

Between HUD’s prior QAD notifications 15 and our review results, Shea Mortgage was notified
that legal restrictions on conveyance are statute violations of 24 CFR 203.41(b), are material loan
deficiencies, and render a property ineligible for FHA insurance. As a result, Shea Mortgage has
taken nonmonetary action to correct the material deficiency. 16 These actions include:

•       Notifying FHA borrowers, with active restrictive covenants, that the restrictive covenants
        are no longer binding;

•       Including an automatic condition on its approval letters and closing instructions that the
        restrictive covenant limiting the sale or lease of the subject property is not allowed;

•       Requiring a revision to the Shea Homes purchase contract; and

•       Providing training to its employees.

Conclusion

Shea Mortgage did not follow HUD requirements when it underwrote loans that had executed
and recorded agreements between Shea Homes and the FHA borrower, containing prohibited
restrictive covenants in connection with FHA-insured properties. We identified 600 loans (29
claim loans and 571 active loans) within our audit period that did not meet the requirements for
FHA insurance. Shea Mortgage’s failure to exercise due diligence allowed prohibited restrictive
covenants on the FHA-insured properties, which rendered them uninsurable. These uninsurable
loans placed the FHA insurance fund at unnecessary risk for potential losses because HUD
would not otherwise see a loss on loans not insured by the FHA insurance fund. Of the 115 (48
claim loans and 67 sampled active loans) loans, 11 resulted in an actual loss to HUD of more
than $1.4 million. Another 19 of these loans had claims paid totaling more than $2.5 million.
The remaining 27 loans found with prohibited restrictive covenants had a total unpaid mortgage
balance of more than $7.7 million with an estimated loss to HUD of more than $5 million (see
appendix C).

                                         RECOMMENDATIONS

We recommend that HUD’s Deputy Assistant Secretary for Single Family Housing require Shea
Mortgage to:

1A.     Reimburse the FHA insurance fund for the $1,467,611 in actual losses resulting from the
        amount of claims and associated expenses paid on 11 loans that contained prohibited
        restrictive covenants (see table 1, appendix C).


15
  Based on two post endorsement technical reviews.
16
  In a response letter dated September 12, 2012, Shea Mortgage only provided examples of the corrective actions;
therefore, the OIG was not able to review or determine that the actions taken were applicable to all loans. Any
corrective actions taken by Shea Mortgage must be fully supported and verified by HUD during audit resolution.




                                                        8
1B.   Support the eligibility of $2,566,837 in claims paid or execute an indemnification
      agreement requiring any unsupported amounts to be repaid for claims paid on 19 loans,
      for which HUD has paid claims but has not sold the properties (see table 2, appendix C).

1C.   Remove prohibited restrictive language or execute an indemnification agreement that
      prohibits it from submitting claims on 27 active loans with prohibited restrictive
      covenants in the amount of $7,715,456, thereby putting $5,092,201 to better use (see
      table 3, appendix C).

1D.   Analyze all FHA loans originated or underwritten beginning January 1, 2008 and nullify
      all active restrictive covenants or execute an indemnification agreement that prohibits it
      from submitting claims on those loans identified.

1E.   Adhere to 24 CFR 203.41 by excluding restrictive language for all new FHA-insured loan
      originations and ensure policies and procedures reflect FHA requirements.

We recommend that HUD’s Associate General Counsel for Program Enforcement:

1F.   Determine legal sufficiency and if legally sufficient, pursue civil remedies (31 U.S.C.
      (United States Code) Sections 3801-3812, 3729, or both), civil money penalties (24 CFR
      30.35), or other administrative action against Shea Mortgage, its principals, or both for
      incorrectly certifying to the integrity of the data or that due diligence was exercised
      during the origination of FHA-insured mortgages.




                                               9
Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE


        Recommendation                                  Funds to be put
                       Ineligible 1/     Unsupported 2/
        number                                          to better use 3/
                    1A        $1,467,611
                    1B                       $2,566,837
                    1C                                       $5,092,201
                 Total        $1,467,611     $2,566,837      $5,092,201

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. These amounts include
     reductions in outlays, deobligation of funds, withdrawal of interest, costs not incurred by
     implementing recommended improvements, avoidance of unnecessary expenditures
     noted in preaward reviews, and any other savings that are specifically identified. If HUD
     implements our recommendations to indemnify loans not originated in accordance with
     HUD-FHA requirements, it will reduce FHA’s risk of loss to the insurance fund. See
     appendix C for a breakdown, by FHA loan number, of the funds to be put to better use.




                                             10
Appendix B
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1


Comment 2


Comment 3




                         11
Comment 4




Comment 5

Comment 6




Comment 7


Comment 4




            12
Comment 8




            13
Comment 7

Comment 6
Comment 7

Comment 2

Comment 4

Comment 2

Comment 4




            14
Comment 4

Comment 5

Comment 6

Comment 4




Comment 9


Comment 10




Comment 2




             15
Comment 2




Comment 2



Comment 11




Comment 2




             16
Comment 12




Comment 4




             17
Comment 4




Comment 13


Comment 14



Comment 2




             18
Comment 15




Comment 9



Comment 16




Comment 4
Comment 17




             19
Comment 5




Comment 2




Comment 4
Comment 5



Comment 2




            20
Comment 6




Comment 7


Comment 4

Comment 6

Comment 4



Comment 2




            21
Comment 2

Comment 4


Comment 2




Comment 18




Comment 19




Comment 20




             22
Comment 20




Comment 4




             23
24
                         OIG Evaluation of Auditee Comments

Comment 1   The recommendations presented in the audit memorandum are based on the
            elements of the finding and the fact that the presence of a prohibited restrictive
            covenant impacts the insurability of an FHA loan and are a violation of Federal
            statute.

Comment 2   Generally, Shea Mortgage stated that it believed and could reasonably have
            determined that the restrictive covenants complied with HUD-FHA requirements,
            given the FHA requirements that a borrower must occupy the property for at least
            one year. Shea Mortgage is incorrect to focus on the one year owner occupancy
            requirement as this is not an element of the OIG finding. We disagree with Shea
            Mortgage’s attempts to connect any legal restriction on conveyance with the one
            year owner occupancy requirement. The deficiency identified was when a lender,
            Shea Mortgage, allows a seller, Shea Homes, to impose a restriction on
            conveyance that list restrictions beyond simply requiring one year occupancy.
            The exceptions identified by Shea Mortgage do not apply.

            While we agree that the FHA requirements do emphasize a one year occupancy
            period, the same regulations, under 24 CFR 203.41(a)(3)(iv), for free assumability
            of the property, emphasize the prohibition of a restriction where the conveyance
            of a property be subject to the consent of a third party, in this case the seller. As
            stated in the memorandum, “[t]he FHA insurance requirements, set forth in 24
            CFR 203.41(b), state that to be eligible for insurance, the property must not be
            subject to legal restrictions on conveyance. Further, 24 CFR 203.41(a)(3) defines
            legal restrictions on conveyance as ‘any provision in any legal instrument, law or
            regulation applicable to the mortgagor or the mortgaged property, including but
            not limited to a lease, deed, sales contract, declaration of covenants…that
            attempts to cause a conveyance (including a lease) made by the mortgagor
            to…(iv) Be subject to the consent of a third party.”

            The audit memorandum does not allege that Shea Mortgage knowingly made a
            false representation to HUD and the OIG acknowledges that Shea Mortgage may
            not be the only lender allowing the recording of unallowable restrictive covenants.
            To clarify, the memorandum finding was based on the restriction on conveyance,
            preventing free assumability. As stated in the memorandum, “for each FHA loan,
            the lender certifies on the uniform residential loan applications that the mortgage
            was eligible for HUD mortgage insurance under the direct endorsement program.”
            The burden is on Shea Mortgage, as with any lender participating in the FHA
            insurance program, to become knowledgeable and adhere to FHA rules and
            regulations. As stated in the memorandum, HUD Handbooks 4000.2 paragraph 5-
            1(B) and 4155.2 paragraph 6.A.1.h both state that it is the lender’s responsibility
            at loan closing to ensure that any conditions of title to the property are acceptable
            to FHA. Had Shea Mortgage exercised due diligence, it would not have approved
            loans for FHA insurance that were ineligible due to the presence of prohibited
            restrictive covenants on the associated FHA-insured properties.



                                             25
Comment 3   We acknowledge Shea Mortgage’s statement regarding its intentions when
            approving the questioned loans for FHA insurance. The findings and
            recommendations are based on the numerous documents reviewed and
            discussions held with Shea Mortgage. We note that Shea Mortgage was
            cooperative and forthcoming throughout the review.

Comment 4   We disagree with Shea Mortgage that the memorandum suggested that the
            restrictive covenants increased the risk to the FHA insurance fund. Specifically,
            the memorandum states that the unallowable restrictive covenants put the FHA
            insurance fund at unnecessary risk for losses.

            As stated in the “Scope and Methodology” section of the memorandum, the scope
            of the review focused solely on the presence of prohibited restrictive covenants.
            Therefore, we cannot say the reviewed loans did or did not contain additional
            underwriting loan deficiencies. However, despite whether there were no other
            deficiencies in the loans; exceptions to the restrictive covenants; no borrowers
            forced to remain in the property when they may have otherwise conveyed the
            property; or no tie between the restrictive covenant and the reason for the loan
            default on these loans is irrelevant because the FHA loans identified in this
            memorandum were determined to have violated Federal statute and were not
            eligible for FHA insurance. As with any underwriting review, deficiencies
            identified, such as overstated income and understated liabilities, do not have to be
            the reason an FHA loan went into default or claim for HUD to seek
            indemnification. Rather, the deficiencies are used as evidence that the FHA loan
            should not have been FHA-insured. In the same regard, the audit memorandum
            identifies a material deficiency that deemed the identified loans ineligible for
            FHA insurance. Therefore, any loss or claim tied to the loan presents an
            unnecessary loss to HUD’s FHA insurance fund.

            To add additional clarification, we revised the language in the “Impact and Risk
            for Losses” and “Conclusion” sections of the memorandum to state that the
            restrictive covenant on the FHA-insured property materially impacted the
            insurability of the questions loans, rendered the FHA loans uninsurable and
            therefore, put the FHA insurance fund at an unnecessary risk for losses because
            HUD would not otherwise see a loss on loans not insured by the FHA insurance
            fund.

Comment 5   The findings presented in the memorandum were based on the comparison
            between the HUD-FHA requirements and Shea Mortgage’s actions. In this
            instance, we found that the restrictive covenants allowed by Shea Mortgage were
            contrary to 24 CFR 203.41(a)(3), for free assumability of the property. In this
            regard, the prohibited restrictive covenants are not consistent with HUD’s
            policies.

Comment 6   We acknowledge that Shea Mortgage has taken corrective actions to remedy the
            problem identified and have included these actions in the audit memorandum




                                             26
            under section “Corrective Action Taken”. However, each recommendation
            addressed to HUD in the audit memorandum, both monetary and nonmonetary,
            was created with the intention to remedy deficiencies identified. HUD will
            review the adequacy and implementation of Shea Mortgage’s corrective actions
            during the audit resolution process to determine if they were sufficient in response
            to the OIG recommendations.

Comment 7   As with any review, we are tasked with promoting the effectiveness and
            efficiency of government operations by ensuring HUD rules and regulations are
            followed. Our findings are a direct result of identifying a violation of HUD-FHA
            requirements for FHA insurance. Based on our conclusions, it was our duty and
            obligation to HUD and other stakeholders to recommend HUD take necessary,
            appropriate action. We believe the recommendations contained in the audit
            memorandum are fair and appropriate given the materiality of the OIG finding.
            As stated in comment 4, the recorded prohibited restrictive covenants impacted
            the insurability of the reviewed loans. Shea Mortgage had a duty to ensure loans
            it approved for FHA insurance were in accordance with all HUD rules and
            regulations.

            The Inspector General Act of 1978 gives the OIG the authority to conduct and
            supervise audits and investigations relating to the programs and operations of
            HUD. As such, the OIG has the responsibility to recommend corrective action,
            including civil or administrative actions based on the facts identified in its audit
            reports. Any recommendations or referral for civil or administrative actions are
            addressed to HUD for review and final determination. Therefore, the
            recommendations remain unchanged.

            In addition, the FHA Reform Act of 2010 states, if the Secretary determines that a
            mortgage executed by a mortgagee approved by the Secretary under the direct
            endorsement program or insured by a mortgagee pursuant to the delegation of
            authority under section 256 was not originated or underwritten in accordance with
            the requirements established by the Secretary, and the Secretary pays an insurance
            claim with respect to the mortgage within a reasonable period specified by the
            Secretary, the Secretary may require the mortgagee to indemnify the Secretary for
            the loss.

Comment 8   To clarify, the OIG determined that 31, not 32, active loans contained prohibited
            restrictive covenants on the FHA property. Additionally, the total claim and
            active loans found with prohibited restrictive covenants on the FHA property was
            60, not 61.

Comment 9   We disagree with Shea Mortgage’s assertions that the active loan sample
            projection of 571 active loans with unallowable restrictive covenants was
            inequitable and inflammatory. As stated in the New York Law Journal’s article
            The Use of Statistical Sampling as Evidence, by George Bundy Smith and
            Thomas J. Hall,




                                              27
                     Statistical sampling is a scientific methodology by which one draws
                     conclusions about a large population of data by measuring and analyzing
                     a smaller, representative sample of the population. When the sample is
                     randomly selected and of sufficient size so as to achieve statistical
                     significance, statisticians may confidently make inferences about the
                     larger population by reviewing the sample. As such, statistical sampling
                     can provide an efficient way to estimate accurately larger populations of
                     data, and has been utilized across many spectrums outside of the
                     courtroom, including election polling, television ratings, unemployment
                     surveys and analyses of public health issues.

              Additionally, we disagree that the potential losses on the active loans contained in
              the sample reviewed were inequitable. The potential losses noted in the
              memorandum for the active loans reviewed are based solely on those FHA cases
              reviewed, not including loans identified through the sample projection, and
              determined to contain the prohibited restrictive covenant and are not projection
              based on the attribute sample.

Comment 10 We agree with Shea Mortgage’s assessment that amounts due to HUD in
           connection with any indemnification should be determined based on actual losses
           to HUD if and when they occur upon resolution of the claim made to HUD. We
           believe our recommendations have made this distinction, separating loans that
           have gone into claim and loans that are active. The estimated losses, as stated in
           the memorandum, were estimated based on HUD’s 66 percent loss severity rate,
           multiplied by the unpaid mortgage balance. The 66 percent loss rate was the
           average loss on FHA-insured foreclosed-upon properties based on HUD’s Single
           Family Acquired Asset Management System’s “case management profit and loss
           by acquisition” computation ending December 2011.

Comment 11 Shea Mortgage stated that it discussed the restrictive covenant with a HUD
           employee in 2009 and believed that the employee confirmed that the restrictive
           covenant was permissible. However, Shea Mortgage was unable to provide any
           supporting documentation or information, such as the name of the employee or
           correspondence, so the matter could be researched further. Aside from the OIG’s
           analysis and determinations, we determined, based on documentation reviewed,
           that HUD came to the same conclusion that the presence of a restrictive covenant
           is a material deficiency and renders a loan uninsurable under the FHA insurance
           program. In this regard, the prohibited restrictive covenants are not consistent
           with HUD’s policies.

Comment 12 In the HUD reviews identified by Shea Mortgage, restrictive covenants were
           found to be unallowable material Federal statute violations. HUD determined that
           Shea Mortgage failed to ensure that the subject property met eligibility
           requirements for FHA mortgage insurance. HUD also noted that FHA will not
           accept legal restrictions on conveyance. The loans reviewed were active loans in




                                               28
              which HUD required Shea Mortgage to provide the required documentation or
              sign an indemnification agreement. Again, indicating the material nature of the
              deficiencies and how it does not adhere to HUD’s policies.

Comment 13 We disagree with Shea Mortgage’s assessment that the restrictive covenant was
           not a restriction on the property. The memorandum contains excerpts from the
           restrictive covenant executed and recorded between the borrower and seller,
           which, in part stated, “Buyer further agreed that Buyer would occupy the Property
           upon close of escrow and would not for a term of twelve (12) months from the
           date of close of escrow of the Property sell, lease, rent, list, or grant an Option to
           Purchase, lease or rent the Property (the ‘Restriction’).”

              Additionally, we would like to clarify that the memorandum finding was based on
              the restriction on conveyance, preventing free assumability, not the owner-
              occupancy requirement. For clarity, we added the following language to the
              report section “Restriction on Conveyance”: Extra emphasis must be placed on
              the fact that the conveyance of the property, during the occupancy period, was at
              the consent of the seller, which violated HUD-FHA requirements at 24 CFR
              203.41(a)(3)(iv). During the exit conference, Shea Mortgage officials confirmed
              that the seller’s consent was required for conveyance during this period.

Comment 14 Shea Mortgage states that there was no impediment to the conveyance in events
           such as foreclosure, short sale, or modification, but otherwise would have
           “required that absent such circumstances or the broad exceptions for various life
           events, the borrower remain an owner-occupant for a year in compliance with
           HUD/FHA requirements.” Again, we would like to clarify that the memorandum
           finding was based on the restriction on conveyance, preventing free assumability,
           not the owner-occupancy requirement. Furthermore, discussions with Shea
           Mortgage officials verified that in order for the borrower to use one of the
           exceptions for various life events they would have needed the seller’s consent,
           which, as stated in the OIG memorandum, violated 24 CFR 203.41(a)(3)(iv).

Comment 15 In a letter dated September 12, 2012, Shea Mortgage provided a sample letter it
           mailed out to 217 FHA loan holders with active unallowable restrictive covenants.
           While we recognize the corrective action, the recommendations remain
           unchanged since Shea Mortgage only provided one example. Shea Mortgage,
           during audit resolution, should provide HUD evidence for each loan indicating
           that the unallowable legal restriction on conveyance has been released.

Comment 16 Shea Mortgage stated that the borrowers could have demonstrated financial
           hardship to qualify for an exception to the restriction on conveyance and sold or
           leased the property. We would like to emphasize that conveyance of the property
           subject to the consent of the seller violates CFR 203.41(a)(3)(iv). See comment 4.

Comment 17 To clarify, the memorandum refers to the restrictive covenant documents between
           the seller and borrower that were filed with the applicable county recorders’




                                               29
              office, not specifically the purchase contract. The restrictive covenant documents
              had various names including

                     •   Memorandum of Limitation on Sale or Lease;

                     •   Memorandum of Limitation on Sale, Lease or Rental; and

                     •   Memorandum of Agreement Regarding Limitation on
                         Sale/Lease/Rental.

Comment 18 We disagree with Shea Mortgage’s assessment that the audit memorandum
           contains allegations of false certifications. The memorandum presents facts as
           discovered and reviewed by the OIG and recommendations to remedy associated
           findings. Recommendation 1F is appropriate in that it calls for a review of the
           facts presented and a determination of legal sufficiency with regards to civil or
           administrative actions. As stated in comment 7, our findings and
           recommendations adhere to the goal and mission of the OIG, to promote the
           effectiveness and efficiency of government operations by ensuring HUD rules and
           regulations are followed.

Comment 19 Shea Mortgage is correct in that the memorandum and associated
           recommendations are addressed to HUD. As with any OIG review, we work
           closely with HUD throughout the review process to ensure a fair and appropriate
           audit resolution is reached.

Comment 20 We disagree with Shea Mortgage’s characterization of the OIG reporting process.
           The OIG conducts a review and reporting process that is both fair and balanced.
           Shea Mortgage was informed throughout the review process to ensure awareness,
           communication, and cooperation by all involved parties, including HUD. A
           preliminary finding outline was presented to Shea Mortgage on August 7, 2012
           and we held an exit conference, attended by Shea Mortgage and HUD, on
           September 10, 2012. Lastly, Shea Mortgage was given the opportunity to present
           its formal response to the memorandum on September 12, 2012, a copy of which
           is included in appendix B of this memorandum. Therefore, we do not agree that a
           qualifying statement, as presented by Shea Mortgage, is necessary as the report is
           considered a final presentation of the OIG review, findings, recommendations,
           and comment.




                                              30
Appendix C
                     SUMMARY OF FHA LOANS REVIEWED

                                        Table 1 - Actual loss to HUD
                                         Claim loan review results

                                 FHA loan               Recommendation 1A –
                                  number                 actual loss to HUD 17
                                023-2611543         $                      87,713
                                023-2623121                               103,920
                                023-2625332                                89,954
                                023-2653067                                92,082
                                023-2665246                                92,767
                                023-2690995                               112,258
                                023-2704782                               123,689
                                023-2735251                               134,764
                                042-8062258                               175,641
                                045-6569558                               172,325
                                048-4598743                               282,498
                                    Total           $                   1,467,611




17
     The actual loss to HUD was obtained from HUD’s Single Family Data Warehouse.




                                                        31
                                   Table 2 - Claims paid, loss unknown
                       Claim loan review results – including one active sample loan

                                     Claim (C) or
                  FHA loan                                   Recommendation 1B – claims
                                    active sample
                   number                                   paid, but no actual loss known 18
                                   loan (A) review
                023-2596452               C                   $                           99,626
                023-2626610               C                                              129,068
                023-2641624               C                                               98,358
                023-2898853               C                                              118,232
                023-2901453               C                                               97,237
                023-3310027               C                                               73,372
                023-3326637               C                                              260,816
                023-3360032               C                                              195,205
                023-3417172               A                                              135,699
                023-3675102               C                                               57,661
                042-8458484               C                                               76,229
                045-6578291               C                                              160,077
                048-4815787               C                                              379,290
                048-4832625               C                                              160,873
                048-5045815               C                                              141,212
                048-5156819               C                                               60,839
                048-5414443               C                                               77,681
                048-6011949               C                                              100,060
                197-3943960               C                                              145,302
                    Total                                     $                        2,566,837




18
     The claims paid values were obtained from HUD’s Neighborhood Watch system, refreshed on July13, 2012.




                                                       32
                                      Table 3 - Potential loss to HUD
                                        Active loan sample results

                 FHA loan             Unpaid mortgage    Recommendation 1C –
                  number                 balance 19   potential loss on active loans 20
                023-2917158           $       109,828 $                         72,486
                023-3033897                   229,444                         151,433
                023-3680699                   218,635                         144,299
                023-3807711                   181,297                         119,656
                023-3924257                   124,924                           82,450
                023-3939455                   252,234                         166,474
                023-4004766                   273,895                         180,771
                023-4174672                   172,649                         113,949
                023-4286251                   225,358                         148,736
                023-4457438                   339,107                         223,810
                042-8097552                   470,156                         310,303
                042-8489458                   402,165                         265,429
                043-7996426                   345,364                         227,940
                043-8601716                   335,501                         221,431
                048-5067748                   302,623                         199,731
                048-5265726                   260,582                         171,984
                048-5366739                   228,718                         150,954
                048-5472134                   289,590                         191,130
                048-5600922                   283,753                         187,277
                048-5705273                   288,922                         190,689
                048-6256999                   271,598                         179,254
                048-6504370                   332,099                         219,185
                197-4021464                   394,395                         260,301
                197-4387122                   331,225                         218,609
                197-4678911                   284,563                         187,812
                197-4966271                   508,311                         335,485
                197-5314302                   258,520                         170,623
                    Total             $         7,715,456      $                         5,092,201




19
  The unpaid mortgage balance for each loan was obtained from HUD’s Neighborhood Watch.
20
  The potential loss was estimated based on HUD’s 66 percent loss severity rate, multiplied by the unpaid mortgage
balance. The 66 percent loss rate was the average loss on FHA-insured foreclosed-upon properties based on HUD’s
Single Family Acquired Asset Management System’s “case management profit and loss by acquisition” computation
ending December 2011.




                                                       33
